CERTIFICATE OF COMPLIANCE
Case No. 20-138
Caption: Donald Trump v. Sierra Club
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 8,469 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on September 16, 2020.

Vittorio Virili
Record Press, Inc.

Sworn to before me on
September 16, 2020
Jasmine Williams

Notary Public, State of New York
No. 01W16397949
Qualified in Queens County
Commission Expires September 16, 2023

Notary Public

